 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




   ARKANSAS INAPPROPRIATELY
   RECEIVED MEDICAID FAMILY
PLANNING FUNDING FOR FEDERAL
FISCAL YEARS 2006 THROUGH 2010


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                       January 2013
                                                       A-06-11-00022
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

While conducting a review of Arkansas’ Form CMS-64, Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64 report) for one quarter, we noted
several errors in the worksheet that the Arkansas Department of Human Services (State agency)
used to aggregate family planning expenditures (the family planning worksheet). Those errors,
which caused the State agency to overreport the family planning expenditures, were systemic in
nature. As a result, we decided to focus on the expenditures included on family planning
worksheets during Federal fiscal years (FY) 2006 through 2010.

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
States have considerable flexibility in designing and operating their Medicaid programs, they
must comply with applicable Federal requirements. In Arkansas, the State agency is responsible
for administering the Medicaid program.

The State agency claims Medicaid expenditures and the associated Federal share of those
expenditures on the CMS-64 report. This report shows Medicaid funds used to pay for medical
and administrative expenditures for the quarter being reported and any prior-period adjustments.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. For
FYs 2006 through 2010, the State agency’s regular FMAP ranged from 72.94 percent to
81.18 percent. The Act established a higher, fixed-reimbursement rate for family planning
medical assistance services of 90 percent (90-percent rate). Family planning services are those
that prevent or delay pregnancy or otherwise control family size.

For infant delivery claims that included a sterilization, which is a family planning service, the
State agency’s methodology called for allocating 40 percent of the cost of vaginal deliveries and
35 percent of the cost of caesarean section deliveries as family planning expenditures.

OBJECTIVE

Our objective was to determine whether the State agency accurately claimed Federal
reimbursement for expenditures included on family planning worksheets from October 1, 2005,
through September 30, 2010.




                                                i
SUMMARY OF FINDINGS

The State agency accurately claimed Federal reimbursement for $42,483,500 of the $65,320,298
in expenditures that it included on family planning worksheets from October 1, 2005, through
September 30, 2010.

Of the remaining $22,836,798 in expenditures, $16,088,361 did not qualify for the 90-percent
rate because it (1) exceeded limits specified in the State agency’s infant delivery allocation
methodology, (2) resulted from errors in compiling the family planning expenditures, and
(3) resulted from errors in the computer programming used to identify infant delivery costs
during three quarters for which we analyzed claim-level data. As a result, the State agency
inappropriately received $1,906,657 in additional family planning Federal share, which is the
difference between the 90-percent rate and the regular FMAP.

In addition, $6,748,437 in infant delivery expenditures resulted from the State agency’s
allocation methodology. The State agency could not support that the percentages it had used
were a reasonable allocation of the costs, so we are setting aside the $929,019 in additional
family planning Federal share that the State agency received for the allocated expenditures.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $1,906,657 in family planning Federal share;

   •   work with CMS to determine the allowable portion of the $929,019 in family planning
       Federal share that it received for allocated sterilization costs;

   •   review the claim-level data of quarters that we did not analyze, identify infant delivery
       costs incorrectly classified as family planning expenditures as a result of the
       programming errors, and refund overpayments to the Federal Government;

   •   review its computer programming for identifying the cost of infant deliveries that include
       sterilizations, ensure that the programming excludes the cost of deliveries without
       sterilizations, and ensure that the programming correctly classifies the costs into delivery
       categories;

   •   submit documentation to CMS supporting the reasonableness of the percentages used for
       allocating infant delivery costs as family planning expenditures; and

   •   establish review procedures to ensure that family planning expenditures are correctly
       compiled, assigned, and claimed.

STATE AGENCY COMMENTS

The State agency concurred with all of our recommendations.

                                                ii
                                                         TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION......................................................................................................................... 1

      BACKGROUND ..................................................................................................................... 1
        Medicaid Program ............................................................................................................. 1
        Medicaid Coverage of Family Planning Services ............................................................. 1
        Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program ...... 1
        The State Agency’s Family Planning Worksheet .............................................................. 2

      OBJECTIVE, SCOPE, AND METHODOLOGY................................................................... 2
        Objective............................................................................................................................ 2
        Scope ................................................................................................................................. 2
        Methodology...................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

      FEDERAL REQUIREMENTS ............................................................................................... 4

      EXPENDITURES INAPPROPRIATELY CLAIMED AT THE 90-PERCENT RATE ........ 4
        Delivery Expenditures That Exceeded Allocation Methodology Limits .......................... 4
        Compilation Errors ............................................................................................................ 5
        Computer Programming Errors ......................................................................................... 5

      UNSUPPORTED ALLOCATION METHODOLOGY.......................................................... 6

      RECOMMENDATIONS ........................................................................................................ 6

      STATE AGENCY COMMENTS…………………………………………………………... 6

APPENDIX

      STATE AGENCY COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
States have considerable flexibility in designing and operating their Medicaid programs, they
must comply with applicable Federal requirements. In Arkansas, the Department of Human
Services (State agency) is responsible for administering the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. For
Federal fiscal years (FY) 2006 through 2010, the State agency’s regular FMAP ranged from
72.94 percent to 81.18 percent. The Act established a higher, fixed-reimbursement rate for
family planning medical assistance services of 90 percent (90-percent rate).

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age (including minors who can be considered sexually active) who
are eligible under the State plan and who desire such services and supplies.

Section 4270 of the CMS State Medicaid Manual states that family planning services are those
that prevent or delay pregnancy or otherwise control family size. That provision of the manual
generally permits the 90-percent rate for the following family planning services and items:
counseling services and patient education, examination and treatment by medical professionals
according to each State’s requirements, devices to prevent conception, and infertility services
(including sterilization reversals). The manual provides that only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the 90-percent rate.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures and the associated Federal share on the
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). This report shows Medicaid funds used to pay for medical and
administrative expenditures for the quarter being reported and any prior-period adjustments. The
CMS State Medicaid Manual, section 2500(A)(1), states that the amounts reported on the
CMS-64 report and its attachments must represent actual expenditures. In addition, all
supporting documentation must be in readily reviewable form and available at the time the claim
is filed.

                                                1
This audit resulted from a separate review of Arkansas’ CMS-64 report for the quarter ended
June 30, 2010. 1

The State Agency’s Family Planning Worksheet

The State agency used a worksheet to support family planning expenditures (the family planning
worksheet) that it claimed on the CMS-64 report. The family planning worksheet included two
types of expenditures: infant delivery expenditures and expenditures from family planning
categories of service.

To identify infant delivery expenditures, the State agency used a computer program to identify
delivery claims that included more than one procedure. The State agency believed that delivery
claims with multiple procedures included a sterilization procedure, which is a family planning
service, and therefore a portion of the expenditures should always be claimed at the 90-percent
rate. Using the delivery procedure code, the computer program then categorized the
expenditures as either vaginal delivery or caesarean section delivery. The State agency’s
methodology called for allocating 40 percent of the cost of vaginal delivery claims and
35 percent of the cost of caesarean section delivery claims as family planning expenditures. A
State agency official manually added delivery costs to the family planning worksheet.

The State agency’s claim processing system used categories of service to classify claims for
reporting on the CMS-64 report. Several categories captured claims related to family planning
services. Another State agency official manually added the expenditures from those family
planning categories to the family planning worksheet.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency accurately claimed Federal
reimbursement for expenditures included on family planning worksheets from October 1, 2005,
through September 30, 2010.

Scope

Our review covered $65,320,298 ($58,788,268 Federal share) in expenditures that the State
agency claimed as family planning and included on family planning worksheets from October 1,
2005, through September 30, 2010.

Our objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our internal control review to the State agency’s procedures for
aggregating family planning expenditures on the CMS-64 report.



1
    We will issue the results of this review under report number A-06-10-00098.


                                                          2
Methodology

To accomplish our objective, we:

   •   reviewed applicable laws, regulations, and guidance;

   •   interviewed State agency officials;

   •   gained an understanding of the process that the State agency used to claim family
       planning expenditures on the CMS-64 reports;

   •   traced expenditures claimed as family planning on the CMS-64 reports to supporting
       documentation;

   •   analyzed the claim-level data supporting infant delivery costs claimed as family planning
       expenditures for three selected quarters;

   •   calculated Federal overpayments related to expenditures that the State agency incorrectly
       claimed at the 90-percent rate (i.e., calculated overpayments as the difference between
       the 90-percent rate and the regular FMAP); and

   •   discussed our results with the State agency.

We assessed the reliability of the State agency’s data by (1) performing electronic testing of
required data elements, (2) reviewing information about the data and the system that produced
the data, and (3) interviewing agency officials knowledgeable about the data. We determined
that the data were sufficiently reliable for the purposes of this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $65,320,298 in expenditures that the State agency included on family planning
worksheets from October 1, 2005, through September 30, 2010, the State agency accurately
claimed Federal reimbursement for $42,483,500. The remaining $22,836,798 consisted of:

   •   $16,088,361 in expenditures that did not qualify for the 90-percent rate, which caused the
       State agency to inappropriately receive $1,906,657 in additional family planning Federal
       share, and




                                                3
   •   $6,748,437 in infant delivery expenditures that resulted from the State agency’s
       unsupported allocation methodology, which caused the State agency to receive $929,019
       in additional family planning Federal share that we are setting aside.

FEDERAL REQUIREMENTS

Section 1903(a)(5) of the Act provides that Federal reimbursement is available at the 90-percent
rate for the cost of family planning services. Section 4270(B)(2) of the CMS State Medicaid
Manual states that only items and procedures clearly provided or performed for family planning
purposes may be matched at the 90-percent rate.

CMS’s Financial Management Review Guide Number 20 (Review Guide) states that when
multiple procedures are performed during a single hospital stay and one of them is related to
family planning, a State’s claim for Federal reimbursement must distinguish between those costs
attributable to family planning services and those costs attributable to other covered services.
The Review Guide states that in the absence of regulations, CMS must accept any method of
allocation a State adopts that reasonably allocates costs for the purpose of claiming the
appropriate Federal reimbursement rate.

EXPENDITURES INAPPROPRIATELY CLAIMED AT THE 90-PERCENT RATE

The State agency claimed $16,088,361 in expenditures that did not qualify for the 90-percent
rate, consisting of:

   •   $9,676,034 in expenditures that exceeded the limits specified in its infant delivery
       allocation methodology,

   •   $6,075,495 in expenditures that resulted from errors in compiling the family planning
       expenditures, and

   •   $336,832 in expenditures that resulted from errors in the computer programming used to
       identify infant delivery costs.

As a result, the State agency inappropriately received $1,906,657 in additional family planning
Federal share, which is the difference between the 90-percent rate and the regular FMAP.

Delivery Expenditures That Exceeded Allocation Methodology Limits

Although the State agency intended to claim only 35 or 40 percent of the costs for infant
deliveries with more than one procedure as family planning expenditures, it incorrectly included
the full amount for most deliveries on the family planning worksheet and ultimately claimed the
entire amount as family planning expenditures on the CMS-64 report. If the State agency had
followed its methodology for allocating the cost of deliveries that included sterilization
procedures, it would have claimed $6,748,437 of costs as family planning expenditures rather
than the $16,424,471 it actually claimed. By claiming the extra $9,676,034 at the 90-percent


                                                4
rate, rather than the regular FMAPs to which it was entitled, the State agency inappropriately
received additional family planning Federal share of $1,305,077.

Compilation Errors

The State agency duplicated $5,713,481 in expenditures at the 90-percent rate, consisting of:

    •   $4,649,699 that was claimed as both waiver expenditures and nonwaiver expenditures 2
        during two quarters and

    •   $1,063,782 in physician services included in two places on the family planning worksheet
        during four quarters.

To compensate for the duplications, the State agency decreased expenditures claimed at the
regular FMAPs rather than at the correct rate of 90 percent. As a result, the State agency
received additional family planning Federal share of $509,270.

Additionally, the State agency made isolated errors when reporting the family planning
expenditures for five quarters. For example, the sterilization services amount on the family
planning worksheet for the third quarter of FY 2006 was $1,222,346, but the amount reported on
the CMS-64 report was $1,325,389. The State agency could not explain the errors. In total, the
State agency overreported family planning expenditures by $362,014 for the five quarters and
received $56,919 in additional family planning Federal share.

Computer Programming Errors

During the three quarters for which we reviewed claim-level data for infant deliveries, computer
programming errors resulted in the State agency incorrectly claiming the following $336,832 in
expenditures:

    •    $222,070 for claims included more than once in the delivery categories,

    •    $103,555 for claims that did not include sterilizations (i.e., deliveries that did not include
         a family planning procedure), and

    •    $11,207 of caesarean delivery costs that were misclassified as vaginal delivery costs (i.e.,
         the difference between the 35- and 40-percent allocation rates).

As a result of the computer programming errors, the State agency received additional family
planning Federal share of $35,391.




2
  States may use waiver programs, which must be approved by CMS, to test new or existing ways to deliver and pay
for health care services in Medicaid.

                                                       5
UNSUPPORTED ALLOCATION METHODOLOGY

Had the State agency correctly applied its methodology of allocating 35 or 40 percent of the cost
of infant delivery claims with more than one procedure as family planning expenditures, the
State agency would have allocated $6,748,437 as family planning expenditures. However, the
State agency could not show how it arrived at the allocation, nor could it support that the
percentages were a reasonable allocation of the costs. As a result, we could not determine the
appropriate amount of the additional family planning Federal share of $929,019 that the State
agency should have received.

The State agency’s methodology may not have reasonably estimated the portion of the cost of
infant delivery claims related to sterilization procedures. The potential unreasonableness of the
State agency’s payment methodology becomes clear in cases where the infant delivery claim is a
high-cost claim. Because the sterilization procedure cost is calculated as a percentage of claim
cost, the sterilization procedure cost is proportionally inflated.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $1,906,657 in family planning Federal share;

   •   work with CMS to determine the allowable portion of the $929,019 in family planning
       Federal share that it received for allocated sterilization costs;

   •   review the claim-level data of quarters that we did not analyze, identify infant delivery
       costs incorrectly classified as family planning expenditures as a result of the
       programming errors, and refund overpayments to the Federal Government;

   •   review its computer programming for identifying the cost of infant deliveries that include
       sterilizations, ensure that the programming excludes the cost of deliveries without
       sterilizations, and ensure that the programming correctly classifies the costs into delivery
       categories;

   •   submit documentation to CMS supporting the reasonableness of the percentages used for
       allocating infant delivery costs as family planning expenditures; and

   •   establish review procedures to ensure that family planning expenditures are correctly
       compiled, assigned, and claimed.

STATE AGENCY COMMENTS

The State agency concurred with all of our recommendations and described corrective actions
that it had taken or planned to take. The State agency’s comments appear in their entirety as the
Appendix.


                                                6
APPENDIX
                        APPENDIX: STATE AGENCY COMMENTS
                                                                                           Page 1 of 2


                                    Division of Medical Services
                                  P.O. Box 1437, Slot S-401 · Little Rock, AR 72203-1437
                                  501-682-8292 · Fax: 501-682-1197 · TDD: 501-682-6789




12/11/2012

Patricia Wheeler
Regional Inspector General for Audit Services
Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, TX 75242

SUBJECT: OIG audit number A-06-11-00022 draft report entitled “Arkansas Inappropriately
Received Medicaid Family Planning Funding for Federal Fiscal Years 2006 through 2010.”

Dear Ms. Wheeler:

Below please find the Arkansas Department of Human Services – Division of Medical Services
(DMS) draft response to your letter dated October 16, 2012 requesting written comments on the
recommendations included in the draft report of OIG audit number A-06-11-00022. The
recommendations along with our initial draft responses are as follows:

   1) Refund to the Federal Government $1,906,657 in family planning Federal share

                  DMS concurs with this recommendation. The nature of the corrective action or
                  plan is listed below in the individual findings.

   2) Work with CMS to determine the allowable portion of the $929,019 in family planning Federal
      share that it received for allocated sterilization costs

                  DMS concurs with this recommendation. We contacted our CMS Regional
                  Office representative Margaret Cano on 6/22/2012 concerning the questioned
                  percentages.     Ms. Cano reviews our Arkansas Quarterly Expenditure
                  Statements for Medicaid and the Children’s Health Insurance Program (CHIP)
                  (CMS-64 and CMS-21). Per our conversation with her, these percentages were
                  established several years ago when the program began by the DMS CFO. No
                  documentation was discovered by our office or at the Regional Office on the
                  methodology used to determine these percentages. We will examine the
                  application of these percentages with our CMS Regional Office to determine if
                  an update to these percentages is required and/or document the methodology
                  used to determine the percentages.
   3) Review the claim-level data of quarters that we did not analyze, identify infant delivery costs
      incorrectly classified as family planning expenditures as a result of the programming errors, and
      refund overpayments to the Federal government



                                     www.arkansas.gov/dhs
                       Serving more than one million Arkansans each year
                                                                                   Page 2 of 2

                   DMS concurs with this recommendation. We will work with the programming
                   personnel responsible for maintaining and providing this report each quarter to
                   analyze the claim-level data in the periods subsequent to the period of this audit
                   for programming errors and refund any overpayments discovered to the
                   Federal government.
   4) Review its computer programming for identifying the cost of infant deliveries that include
      sterilizations, ensure that the programming excludes the cost of deliveries without sterilization,
      and ensure that the programming correctly classifies the costs into delivery categories

                   DMS concurs with this recommendation. During the last several years, our
                   Division has experienced turnover of the computer programming personnel
                   responsible for maintaining and providing this report each quarter. As a result,
                   our Division has made an endeavor to review current programming and to
                   develop and maintain documentation and procedures regarding the production
                   of these reports.    This process and documentation are under continuous
                   development to ensure consistency and quality of the family planning reports.
   5) Establish review procedures to ensure that family planning expenditures are correctly compiled,
      assigned, and claimed

                   DMS concurs with this recommendation. As stated in our response to
                   recommendation number four, our Division has made an endeavor to review
                   current programming and to develop and maintain documentation and
                   procedures regarding the production of these reports. This process and
                   documentation are under continuous development to ensure consistency and
                   quality of the family planning reports.

If you have any questions or need to discuss this further, please contact myself, Sharon Jordan or
Thomas Carlisle.

Sincerely,



Sheryl Baker, Medical Assistance Manager
